1
No.

IN THE SUPREME COURT OF THE UNITED STATES
s4ore

ANDREW WATSON BUNN
Petitioner
v.
STATE OF WISCONSIN
Respondent

PETITION FOR WRIT OF CERTIORARI
TO WISCONSIN COURT OF APPEALS

Andrew Watson Bunn, RN, pro se
473 Oakland Avc
Port Washington, WI 53074
andybunn@yandex.com
262-416-2880

RECEIVED
MAR - i 2021

2021
■22226

22216

2^2%

QUESTION PRESENTED
Capital Case.
Whether a right to appeal is preserved when the questions presented remain
unanswered.

r

LIST OF PARTIES
ALL PARTIES APPEAR IN THE CAPTION OF THE CASE ON THE COVER PAGE.
RELATED CASES
WISCONSIN v Bunn, No. 17CM1652, Milwaukee County Circuit Court. Judgment
entered June 7, 2018.
WISCONSIN v Bunn, No. 2019AP2127-CR, Wisconsin Court of Appeals District I.
Judgment entered Sept 09, 2020.
TABLE OF CONTENTS
OPINION BELOW........

3

JURISDICTION
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED

A
,4

STATEMENT OF CASE
REASONS FOR GRANTING THE PETITION

APPENDICES:
Appendix A - Opinion of Wisconsin Court of Appeal.............
Appendix B - Denial of Review by Wisconsin Supreme Court
Appendix C - Trial Court Decision Transcript.........................
Appendix D - Relevant State Statutory and Rule Provisions...,

5
7

11
16
17
.25

TABLE OF AUTHORITIES
Brady v Maryland 373 U.S. 83 (1963)

.6

Ohio v Clark, 576 U.S. 237 (2015)

8

Connick v Thompson, 563 U.S. 51 (2011)

7

Coy v Iowa, 487 U.S. 1012,1015-16 (1988)

1

Crawford v Washington, 541 U.S. 36 (2004)

8

Giglio v United States, 405 U.S. 150 (1972)

7

Giles v California, 554 U.S. 353,128 S.Ct. 2678 (2008)

7

Graham v Connor, 490 U.S. 386 (1989)

8

Jencks v United States, 353 U.S. 657 (1957)

7

Maryland v Craig, 497 U.S. 836 (1990)

8

Wisconsin Statutes:
167.31

5

808.03(1)

7

941.23

.5

971.23

7

2

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of,the highest state court to review the merits appears at
Appendix 7j- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____ __
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

5^ For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix rfL- .
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date)in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

.

No.

IN THE SUPREME COURT OF THE UNITED STATES

Andrew Watson Bunn, Petitioner
Y.

STATE OF WISCONSIN, Respondent

PETITION FOR WRIT OF CERTIORARI
TO WISCONSIN COURT OF APPEALS

Petitioner, Andrew Watson Bunn, respectfully asks that a writ of certiorari issue to
review the judgment and opinion of the Wisconsin Court of Appeal, District I, filed on
September 9, 2020.
OPINION BELOW
The opinion of the Wisconsin Court of Appeal, unpublished, was issued on
September 9, 2020, and is attached as Appendix A. The Wisconsin Supreme Court’s
one-page order denying review is attached as Appendix B. The Decision of the trial court
Motion to Suppress and Dismiss for Unlawful Stop hearing is attached as Appendix C.

3

JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a). The decision of the Wisconsin Court of Appeal for which
petitioner seeks review was issued on September 9, 2020. The
Wisconsin Supreme Court order denying petitioner's timely
petition for discretionary review was filed on January 20, 2021.
This petition is filed within 90 days of the Wisconsin Supreme
Court's denial of discretionary review, under Rules 13.1 and 29.2
of this Court.
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
United States Constitution, Amendment 6 provides, in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
United States Constitution, Amendment 14 provides, in
relevant part:

4

No state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States;
nor shall deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
The Wisconsin statutory provisions and court rules that are
presented in Appendix D.

STATEMENT OF CASE
A traffic stop was conducted in May 11, 2017 entirely based
on an in person complaint from a "female" otherwise indescribable
anonymous

witness.

demonstrated
witness.

false.

Three

All

predictive

Physics

handguns

were

can

aspects

not

located

of

the

support

the

in

vehicle

the

complaint

tip

of

the

properly

transported according to Wisconsin Statute 167.31 and in conflict
with Wisconsin 941.23.

A criminal complaint was filed May 13,

2017 reporting the cause of the investigation was a 911 call. No
record of a 911 call or "dispatch" record are on record. The body
camera evidence disappeared and remains unexplained. The identity
of the third of three officers is unknown.
A motion to suppress all evidence and dismiss for unlawful
stop was conducted October 24, 2020 and Decided November 3, 2017
(Appendix C).

The proceedings were stayed January 25, 2018 until

5

the- Statute

conflicts

were

resolved

in

State

Granberry,

v.

16AP173-CR.
The single State's witness, Kieran Sawyer, has testified to
two mutually exclusive

sets

of

facts

He

under oath.

has both

testified an Amy L Esperes with a Date of Birth of 09/20/1989 and
Angela M Esperes with a Date of Birth of 01/19/1988 were in the
vehicle.
Unable

to

attain

internal

coherence

resolved

with

a

the

complete

discovery

as

Ordered

the

matter

of

testimony

and

evidence

plea

agreement

and

Notice

to

Pursue

or
was

Post-

Conviction Relief dated June 7, 2018. The fine was in the amount
of vandalism wrought on the vehicle post peaceful arrest.
On Appeal the Brady Motion to effect discovery was denied.
Oral hearing refused. The Wisconsin Court of Appeals District I
admits some puzzlement, "as best as we can tell" ignoring the 6th
and

14th Amendment

appeal

must

be

and

incredibly pretending without

limited

to

the

4 th

Amendment,

but

merit

an

affirmed

(Appendix B Page 2).
The Supreme Court of Wisconsin refused review January 20,
2021. In my Petition I detail an assassination attempt on me and
the accidental death of my neighbor. Since filing this petition,
more deaths have been documented and at least one was considered
suspicious.

Wisconsin

does

not

6

have

an

attempted

homicide

specific statute. We believe the State is complicit in the murder
spree,

and this action is a disarming,

and therefore are forced

to consider this a capital case and depart the State of Wisconsin
statum.

REASONS FOR GRANTING THE PETITION
I
This case has risen to the high Court prematured. In Wisconsin Appeal of a final decision is a
matter of right (Wisconsin 808.03(1)). The appeal was broadly Constitutionally rooted citing
verbatim: the preamble, 2nd, 3rd. 4lh. 5th. And 14th Amendments. The arguments were arbitrarily,
oblomovist, and anti-intellectually limited to the 4th Amendment, without authority and admitted
unclarity.
Wisconsin law requires complete timely discovery by Statute 971.23. We know there would be
body camera evidence. We infer the State knows of the lack of the body camera evidence and
therefore did not provide corroborating testimony of the primary arresting officer, Officer
Manuel Leucena-Martinez, instead the patrol Sergeant alone testified in order to deceive the
Court. The Supreme Court has resolved the matter in Brady v Maryland 373 U.S. 83 (1963), as
well as Giglio v United States, 405 U.S. 150 (1972) and Connick v.Thompson, 563 U.S. 51
(2011) and Jencks v United States, 353 U.S. 657 (1957). What has happened to the evidence
necessary for a fair trial here? And why has the Appeal Court refused to conform?
II

7

The secondary argument presented is the lack of Confrontation of the “witness”
upon whom the entirety of the suspicion in order to effect the otherwise suspicion-less
traffic stop where the witness is indescribable. Although the witness is termed, “she” and
“woman” there is no objective criteria to distinguish the witness from hallucination,
fabrication or apparition experience. There are objective and legal reasons to suspect the
later few. We may infer the predictive aspect of the police tip is falsified by the lack of a
charging decision (and by the police report itself). The inability or refusal to describe a
witness lies outside of objectively reasonable police conduct. Officers are able to look at
and describe objects. Without a memory or vision police tasks such as investigation, and
patrol are not possible (Graham v Connor, 490 U.S. 386 (1989). The witness derives
credibility from the potential exposure (such as a license plate or phone number) but is an
actual exposure not an imaginary or theoretical one. Although my email was hacked
deleting my Petition so going from memory here, The Appeals Courts were briefed on
and ignored the following authorities: Coy v Iowa, 487 U.S. 1012, 1015-16 (1988), Giles
v California, 554 U.S. 353, 128 S.Ct. 2678 (2008), Crawford v Washington, 541 U.S. 36
(2004), Maryland v Craig, 497 U.S. 836 (1990), Ohio v Clark, 576 U.S. 237 (2015).
The trial court did find Sawyer’s testimony credible. On Appeal, I took liberty to
demonstrate Sawyer’s perjury (no qualifier intended). The Appeals Court dishonestly
termed this “rambling.” Sawyer remains uncharged.
The State likely knew of the dubious and murky claims and this is why the false
Criminal Complaint was filed to shore up false authority. Knowing deception of a Court
8

violates Prosecutorial Ethics (Rule 3.8 a, d, g and h). Norms have rapidly changed. Rule
of Law appears collapsed. Wisconsin lacks prosecutor integrity units or sufficient laws to
protect the public from outrageous conduct. We have openly speculated in the Appeals
Court this action truly commenced due to the leaking of the Petitioner’s Security
Clearance and represents a grave risk to the United States the list will be used as a kill
list. Wisconsin has extensive business interests with a strategic enemy of the Unites
States. We suspect the reason the State has attempted to murder the Petitioner is to
protect this criminal scheme. The murderer is likely government supported due to the use
of Federal Communications Commission restricted equipment and techniques
(Communications Act of 1934).
Petitioner urges this Court to take review because state sponsored death dealing is a
serious and tends to expand.
CONCLUSION
The Petitioner in this case is a not working health professional in a pandemic
because basic security has been refused and this case has been demonstrated an injustice.
Instead of pursue honesty, the Appeals Court may have errored by ignoring the settled
arguments and authorities presented. For the foregoing reasons, Petitioner requests that
this Court grant the petition for certiorari.
In the Alternative, the Court may demand the Wisconsin Appeals Court answer
the arguments presented as a right. However, due to security failures, indigency, and pro

9

se status, the Petitioner is unable to present a defense or briefing within the State without
risk to loss of life.
Dated:
Respectfully submitted,

10

